January 23, 2003

FRANCIA G. SMITH
VICE PRESIDENT AND CONSUMER ADVOCATE

SUBJECT:     Management Advisory – Consolidation of the San Francisco Mail
             Recovery Center (Report Number OE-MA-03-002)

This management advisory presents the results of our review of the consolidation of the
San Francisco Mail Recovery Center (Project Number 03BG006OE000). We initiated
this project in response to a congressional request inquiring about procedures for
closing, real savings obtained, and obligations for employee placement related to the
closure of the San Francisco Mail Recovery Center.

Our review disclosed that there is the potential for savings by consolidating operations,
and the Postal Service honored its obligations to employees by reassigning them
to new positions. However, the Postal Service needs to develop policies and
procedures to ensure that proper analyses and notifications are performed to
document, verify, and support consolidation and/or closure decisions.

This report made one recommendation addressing this issue. Management disagreed
with our recommendation indicating they have no current plans to consolidate the
remaining two mail recovery centers. However, Postal Service management agreed to
implement the recommendation should further consolidation of the mail recovery
centers take place. Management’s comments and our evaluation of these comments
are included in this report.

                                     Background

This report responds to a congressional request dated September 6, 2002, inquiring
about the closure/consolidation of the San Francisco Mail Recovery Center. The Postal
Service has three mail recovery centers located in Atlanta, Georgia; St. Paul,
Minnesota; and San Francisco, California, formerly called the dead parcel branches,
where all undeliverable parcels, mail items, and unpaid mail are sent.

In an effort to increase operational efficiency and reduce costs, the Postal Service
decided to close one of the mail recovery centers and consolidate operations with the
remaining facilities. Consumer advocate officials define consolidation as discontinuing
operations at the San Francisco Mail Recovery Center and combining operations with



                                    Restricted Information
Consolidation of the San Francisco                                               OE-MA-03-002
 Mail Recovery Center


the St. Paul and Atlanta Mail Recovery Centers. The Postal Service decided to close
the San Francisco Mail Recovery Center because the San Francisco facility processed
the lowest volume of mail, it would have the least impact on staff, and the facility had
mail operational constraints. The San Francisco Mail Recovery Center employees
expressed concern and contend that this was not a sound business decision that would
result in cost savings. Further, the employees argued that the Postal Service did not
follow the proper procedures to close the facility or notify employees. The
San Francisco Mail Recovery Center closed on September 13, 2002, and all
57 employees were either reassigned or retired.

                         Objectives, Scope, and Methodology
The objectives of our review was to evaluate the consolidation of the San Francisco
Mail Recovery Center. Specifically, we determined whether the Postal Service:
(1) followed proper procedures to close the facility; (2) assessed if closure will result in
real savings; and (3) honored its obligations for employee reassignment.

To accomplish our objectives, we reviewed the Consumer Advocate News & Views
(Issue 12, 2000) and Postal Bulletin Number 22082. We interviewed officials from the
Postal Service Consumer Advocate office, Facilities Asset Management, Pacific Area
Support, Pacific Area Facilities Service Office, San Francisco District Labor Relations,
and San Francisco District Facilities. In addition, we interviewed representatives and
examined contracts from the American Postal Workers Union and the National Postal
Mail Handlers Union, and reviewed any applicable policies and procedures.

We conducted our review from September through January 2003, in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our conclusions and observations with appropriate management officials
and modified our report accordingly.

                                     Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                             Results
According to Postal Service management, the decision to consolidate the mail recovery
program into two mail recovery centers is based on “what is best for our business.” The
San Francisco Mail Recovery Center consolidation was based on the fact that of the
three mail recovery centers, San Francisco experienced the greatest decrease in mail
volume, had the smallest staff, and greatest facility constraints. However, no formal
policies or procedures were in place requiring the Postal Service to document this
business decision. We believe by developing a policy and documenting any future
consolidations, Postal Service management will be able to quickly address any
questions and concerns.


                                                   2
                                        Restricted Information
Consolidation of the San Francisco                                                                     OE-MA-03-002
 Mail Recovery Center



We also concluded potential savings from salary and benefits would be realized from
abolishing the 57 mail recovery center positions. In addition, we found that the Postal
Service honored its obligation to employees by reassigning them other positions.

Procedures for Consolidation

While there are no procedures for consolidations,1 the vice president and consumer
advocate took steps to inform employees about the consolidation. According to Postal
Service officials, the decision to consolidate was a rational business decision to
increase operational efficiency; therefore, written procedures were not necessary. The
policies that govern the mail recovery program are found in Postal Operation Manual
692, Domestic Mail Manual 105, and Domestic Mail Manual 106. Policies and
procedures in this area would ensure that proper analyses and notifications are
performed to document, verify, and support the validity of such decisions. Without
formal policies and procedures, it can be difficult for senior management to justify
operational changes.

Although no formal procedures exist, the vice president and consumer advocate notified
the Postal Service units affected by the operational changes. The Postal Service units
affected were Labor Relations, Network Operations Management, and Facilities.
Written notification of the operational change was provided to Labor Relations in
April 2002. Network Operations Management which transports the undeliverable mail
when space is available on the Intra Bulk Mail Network2 was contacted on July 8, 2002.
Although not required, Facilities received a courtesy email stating that the mail recovery
center would no longer occupy the space at 390 Main Street, San Francisco, California.
Since the mail recovery center was a Postal Service operation housed in a Postal
Service facility, notification to the facility was not necessary.

Potential Savings of Consolidation

We evaluated the consolidation and found there is the potential for savings. We
determined from the data collected that the San Francisco Mail Recovery Center had
the least impact on staff, lowest mail volume, and the smallest total income of the
three mail recovery centers. Furthermore, we determined that the Postal Service
incurred no additional transportation costs to move undeliverable mail because excess
capacities on current truck routes are utilized. Also, the Postal Service should realize
salary and benefit savings from eliminating the 57 mail recovery center district positions
and placing the employees in vacant existing district positions.



1
 We determined that this was not a closure, but a consolidation of operations.
2
 The Intra Bulk Mail Network transports undeliverable mail to the mail recovery center through the use of trucks that
have space available on the existing route.




                                                          3
                                               Restricted Information
Consolidation of the San Francisco                                                                        OE-MA-03-002
 Mail Recovery Center



Procedures for Employee Reassignment

We evaluated the procedures the Postal Service followed to reassign the San Francisco
Mail Recovery Center employees. We determined that the Postal Service honored its
obligations to the employees when reassigning them to new positions. The Postal
Service followed Article 12 of both the American Postal Workers Union and National
Postal Mail Handlers Union National Contract Agreement. The National Contract
Agreement provides employees reassignment rights based on the needs of the Postal
Service.

According to Article 12.4.C of the National Contract Agreement for the American Postal
Workers Union and National Postal Mail Handlers Union, the Postal Service is required
to provide notification to the national office regarding implementation of the
consolidation. The national office would then notify the regional office of the
consolidation. The employer is required to advise the union based on the best estimate
available at the time of the anticipated impact. The union, at the regional level, will then
be periodically updated by the employer of any information change due to more current
data. No advance employee notification was necessary since the reassignment was not
outside of the installation.3 Further, Article 12.5.B.5 requires the Postal Service to
withhold full-time positions within the area for full-time employees who are involuntarily
reassigned.

According to the National Contract Agreement when operational changes impact
employee reassignments the Postal Service is required to notify Labor Relations, then
Labor Relations notifies the national union(s), and finally the national union(s) notifies
the regional and local union offices. Postal Service management notified the Labor
Relations headquarters office in April 2002 of the planned San Francisco Mail Recovery
Center closure. Labor Relations notified the American Postal Workers Union and
National Postal Mail Handlers Union national offices in June 2002. In June 2002 and
July 2002, the national union offices notified the regional and local offices, respectively.

There were a total of 57 craft employees assigned to the San Francisco Mail Recovery
Center, of which 55 were clerks and 2 mail handlers. The employees received verbal
and written notification of the consolidation. The San Francisco Mail Recovery Center,
acting manager, gave the verbal announcement in June 2002, after the national office
received the official notification. The employees received written notification in
July 2002, and official notification in August 2002. Postal Service management granted
all employees retreat rights.4 The disposition of the employees are as follows: 5 retired,
5 on light duty, 14 in residual bids, and 31 in secured bids.


3
  Installation - the employee district.
4
  Retreat rights – a right granted to employees that are involuntarily excessed from their section or unit to revert back
to that section or unit if it is reestablished.




                                                           4
                                                Restricted Information
Consolidation of the San Francisco                                          OE-MA-03-002
 Mail Recovery Center



Recommendation

We recommend the vice president and consumer advocate:

1. Develop procedures to ensure that proper analyses and notifications are performed
   to document, verify, and support consolidation decisions.

Management’s Comments

Management disagreed with the need to implement the recommendation currently.
Management’s comments indicated that the Postal Service had no present plans to
consolidate the remaining two mail recovery centers and given the low probability of
a future consolidation, they question whether the time and resources needed to
accommodate the recommendation would be a value added process. However, the
Postal Service agreed to utilize the report and recommendation to develop internal
mail recovery center standard operating procedures for analysis and consolidation
should the occasion arise. Management’s comments, in their entirety, are included
in the appendix of this report.

Evaluation of Management’s Comments

Management’s planned actions should resolve the issue identified in the report.
Management agreed to implement the recommendation by developing internal mail
recovery center standard operating procedures should further consolidation take
place.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, director, Accepting and Processing, at (703) 248-2100, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: Ralph J. Moden
    Richard J. Strasser, Jr.
    Paul P. Basile
    Susan M. Duchek




                                                5
                                     Restricted Information
Consolidation of the San Francisco                            OE-MA-03-002
 Mail Recovery Center


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                6
                                     Restricted Information
